                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: A14020004                                                                     Page 1 of 1




                 We assessed an allegation of possible data fabrication in a research publication. 1 We
         sought additional specific information about the publication and the results about which there
         was a concern, but were unable to acquire additional information. Therefore, we are unable to
         determine whether the allegation has substance, or whether there is an NSF link to the results
         called into question.

                   This case is closed with no further action taken.




NSF OIG Form 2 (11/02)
